U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Charles Lynch Pettis v. United States of America,
S.Ct. No. 20-5955

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 4,
2020, and placed on the docket on October 8, 2020. The government’s response is due on
November 9, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 13, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5955
PETTIS, CHARLES LYNCH
USA

CHARLES LYNN PETTIS
18777-041
PO BOX 305
JONESVILLE, VA 24233

